DOE F 1325.8
(08-93)
United States Government                                                            Department of Energy


Mem orandum                                                                      OFFICE OF INSPECTOR GENERAL


         DATE:   June 10, 2005
     REPLY TO
      ATTN OF:   IG-34 (A04SC042)                          Audit Report No.: OAS-L-05-07

     SUBJECT:    The Department of Energy's Annual Report to Congress on Management and
                 Operating Contractor Employees in the Washington, D.C. Area
      TO:        Director, Office of Management, Budget and Evaluation/Chief Financial Officer,
                 ME-1

                 INTRODUCTION AND OBJECTIVE

                 The Department of Energy (Department) frequently assigns management and
                 operating (M&O) and other facility contractor employees to the Washington,
                 D.C. area to satisfy critical technical and direct support needs of various
                 Headquarters program offices. In an effort to control the number of these
                 contractor employees, Congress requires the Department to track, evaluate, and
                 report the number and cost of such assignments each year as of September 30.
                 Congress included language in Report 108-554 accompanying the House
                 Energy and Water Development Appropriations Bill, Fiscal Year (FY) 2005,
                 directing the Office of Inspector General to review the Department's FY 2004
                 report. In response to that direction, we initiated this audit to determine
                 whether the Department's FY 2004 report was accurate. The audit
                 methodology is described in an attachment to this report.

                 CONCLUSION AND OBSERVATIONS

                 Nothing came to our attention to indicate that the Department's FY 2004 report
                 to Congress on Management and OperatingContractorEmployees in the
                 Washington MetropolitanArea as of September 30, 2004, was materially
                 inaccurate.

                 Based on our testing at Headquarters and work at eight of the Department's
                 major contractors, we identified only two employees and one office space lease
                 that were not being properly tracked. The Department took immediate action
                 to add one of the employees to its tracking database, initiated action to recover
                 costs for the remaining individual that the M&O contractor assigned to the area
                 without authorization, and added the lease information to its 2004 report. At
                 our request, the Department also added several footnotes to its report that we
                 believed were necessary to provide complete disclosure regarding certain
                 facility contractor employees assigned to the Washington, D.C. area to satisfy
                 specific contract requirements.
While not impacting the accuracy of the year-end report, we noted several
opportunities to improve the quality and accuracy of assignment tracking information.
In particular, we observed that the Department lacked the information necessary to
report on assignments that ended prior to year end because its tracking database did
not maintain historical data. Because of this limitation, contractor employees assigned
to the area for periods of up to eleven months were not reflected in the annual report.
Our testing, for example, identified five employees that were not included in the
year-end report because their assignment ended before the end of the fiscal year. Two
of the employees that were not reported were assigned to the area for 11 months at a
total cost of about $748,000. After our audit was completed, Department officials
informed us that they had initiated action to modify the tracking database to add the
needed capability.

Accuracy of the Department's assignment tracking database could also be improved by
ensuring that sponsoring organizations update it as required by DOE Order 350.2a,
Use of Management and Operatingor Other FacilityManagement Contractor
Employees for Services to DOE in the Washington, D.C., Area. Based on inquires of
program officials and our reviews of selected assignments, we noted, for example, that
Environmental Management did not remove three contractor employees from the
database for almost a year after they left. Seven other employees associated with
multiple programs with start dates as early as November 1, 2003, through June 1, 2004
were not included in the database until September 2004.

SUGGESTED ACTIONS

To improve the accuracy of the information contained in the Department's tracking
database, we suggest that the Director, Office of Management, Budget and
Evaluation/Chief Financial Officer ensure that:

      1) Action to modify the tracking database to permit the retention of historical
         information on employees assigned to Washington, D.C. area throughout the
         year is completed; and,

      2) Sponsoring organizations update the tracking database as required.

During the course of this review we also noted certain matters related to the economic
and efficient use or assignment of M&O contractor employees by various program
offices. We are continuing our evaluation in this area and may issue a separate report
on these matters.




                                       2
We appreciate the cooperation of your staff during this review. Since this report
contains no recommendations, a formal response is not required.




                                  Rickey R. Hass, Director
                                  Science, Energy, Technology,
                                    and Financial Audits
                                  Office of Audit Services
                                  Office of Inspector General

Attachment

cc:   Director, Policy and Internal Controls Management, NA-66
      Team Leader, Audit Liaison, ME-100
      Audit Liaison, SC-67
      Audit Liaison, EM-33




                                       3
                                                                                      Attachment

OBJECTIVE

To determine whether the Department's FY 2004 report was accurate.


SCOPE

The audit was performed between August 2004 and June 2005 at Department Headquarters
and included selected Department sites. We performed a review of selected contractor's
current assignments to the Washington, DC area.


METHODOLOGY

To accomplish our audit objective, we:

     *   Reviewed applicable laws and regulations pertaining to facility contractor:
         assignments to the Washington, DC area;

     *   Reviewed prior audits pertaining to facility contractor assignments to the
         Washington, DC area;

     *   Reviewed program staffing plans and discussed the staffing plans with program
         offices;

     *   Obtained listings of current assignments to the Washington, DC area from eight of
         the Department's major contractors and compared those listings to the Facility
         Contractor Database;

     *   Reviewed payroll records and travel vouchers at two major contractors;

     *   Discussed processes for assigning facility contractors to the Washington, DC area
         with program officials and contractors; and,

     * Reviewed the Fiscal Year 2004 report to Congress on the number of facility
       contractors in the Washington, DC area.

This audit was conducted in accordance with generally accepted Government auditing
standards for performance audits and included tests of internal controls and compliance with
laws and regulations to the extent necessary to satisfy the audit objective. Because our review
was limited, it would not necessarily have disclosed all internal control deficiencies that may
have existed at the time of our audit. As part of our ongoing effort to assess the Department's
compliance with the Government Performance and Results Act, we attempted to identify
performance measures or goals applicable to facility contractor assignments to the
Washington, DC area. Our review disclosed that the Department had not developed specific
measures in this area. We relied on limited computer processed data to accomplish the audit
objective. Where appropriate, we performed tests of data reliability during the audit. When
the test work identified weaknesses in data reliability, we performed alternate steps to validate
the information sufficient to accomplish our audit objective.

We discussed the results of this audit with Department officials on June 7, 2005.




                                                2
DOE F 1325.8
  (8-89)
SFG (07-90)


United States Government                                                                         Denartment of Energy


Memorandum
           DATE       JUL    0 6 2005'
      REPLY TO
       ATTN OF:      IG-34 (A04SC042)

      SUBJECT:       Final Report Package for Audit of "The Department of Energy's Annual Report to Congress on
                     Management and Operating Contractor Employees in the Washington, DC Area"
                     Audit Report Number: OAS-L-05-07
               TO:   Linda J. Snider, Assistant Inspector General, Audit Planning and Administration

                     Attached is the required final report package on the subject audit. The pertinent details are:
                         1. Actual Staff days:      242.2

                            Actual Elapsed days: 295

                        2. Names of OIG and/or contractor audit staff:
                            Assistant Director:    Kevin Majane
                            Team Leader:           William Lubecke
                            Auditor-in-Charge:,    Michael Carney
                        3. Coordination with Investigations and Inspections:

                            Investigations:         Reggie France
                                                    August 18, 2004
                            Inspections:           Fatima Pashaei
                                                   August 23, 2004



                                                                   Rickey    . Hass, Assistant
                                                                     Inspector General
                                                                   Financial, Technology,
                                                                      and Corporate Audits
                                                                   Office of Audit Services
                                                                   Office of Inspector General
                     Attachments:
                     1. Final Report
                     2. Monetary Impact Report
                     3. Audit Project Summary Report
                     4. Audit Database Information Sheet
                        MONETARY IMPACT OF REPORT NO.: OAS-L-05-07

1. Title of Audit:      "The Department of Energy's Annual Report to Congress on Management
                        and Operating Contractor Employees in the Washington, DC Area"

2. Division:            Science, Energy, Technology and Financial Audits

3. Project No.:         A04SC042\

4. Type of Audit:

      Financial:                                          Performance:        X
         Financial Statement                                Economy and Efficiency                  X
         Financial Related                                  Program Results
      Other (specify type):

5.

                                                                                                  MGT.            POTENTIAL
            FINDING                COST                        QUESTIONED COSTS                 POSITION           BUDGET
                              AVOIDANCE                       _IMPACT
(A)             (B)          (C)       (D)          (E)           (F)      (G)        (H)          (I)               (J)
                Title       One     Recurring    Questioned     Unsup-   Unre-       Total      C=Concur            Y=Yes
                            Time     Amount                     ported   solved   (E)+(F)+(G)   N=Noncon            N=No
                                     PerYear                                                     U=Undec
      N/A




TOTALS--ALL FINDINGS                            ___




6. Remarks: No recommendations were made that would lead to monetary savings.

7. Contractor:                                        10. Approvals:
8. Contract No.:                                      Division Director/Date:  V                1(4
                                                                                                7           06-
9. Task Order No.:                                    Technical Advisor & Date                          ,
                                                      Office of the Inspector 'General (OIG)
                                                 Audit Project Office Summary (APS)
                                                                                                                                          Page 1
Report run on:                              July 5, 2005 3:03 PM


  Audit#: A04SC042                      Ofc:    FOA     Title: M&O CONTRACTORS IN WASHINGTON DC AREA

                                                                            SMilestones           ****
                                                       Planned               End of Survey                 Revised         Actual


   Entrance Conference:.....                       11-AUG-04                                             19-AUG-04       19-AUG-04

   Survey:..................                                                                             11-FEB-05       11-FEB-05

   Draft Report:............                                                                             17-DEC-04
   Completed (With Report):.                       30-SEP-04                     11-FEB-05               15-JAN-05       10-JUN-05   (R    )
   ------------                Elapsed Days:                   50                     176                      150           295
                                                                                                               Elap. Less Susp:
   Date Suspended:                                                        Date Terminated:
   Date Reactivated:                                                    Date Cancelled:
   DaysSuspended(Cur/Tot):                               (             )Report Number:                   OAS-L-05-07
   Rpt Title:                             Report Type:     LTR LETTER REPORT
   THE DEPARTMENT OF ENERGY'S ANNUAL REPORT TO CONGRESS ON MANAGEMENT AND OPERATING
   CONTRACTOR EMPLOYEES IN THE WASHINGTON, DC AREA.

                                                       ****     Audit Codes and Personnel ****
  Class:    PER                  PERFORMANCE
  Function: 006                  LABOR RELATIONS/HUMAN
  MgtChall: 009                  CAPITAL
                                                                                             AD: 530
                                                                                             AD: 530           MAJANE
                                                                                                               MJNE
   Site:              OTH    CONTRACT/GRANT ADMIN
                             OTHER                                                          AIC:         804   CARNEY
   SecMiss:
                          Presnit
                             Not
                             No t Found
                                   SHC                                              Team Ldr:            232   LUBECKE
                  -   c                 Found
                                                                                    Tech Adv:            544   ACTON
                                 STRATECIC MANACGEMNT                     ....           ......
                                                              **** Task Information ****

          Task No:
          Task Order Dt:                                                  CO Tech. Rep:
          Orig Auth Hrs:                                                  Orig Auth Costs:
           Current Auth:                                                  Current Auth Cost:
           Tot Actl IPR Hr:                                               Tot Actl Cost:


                                                                ****      Time Charges        ****

                           Emp/Cont Name                 Nudays                    Last Date
                           MARVIN,          R                       1.6            11-JUN-05
                           ALLEN,       B                           2.5            13-NOV-04
                               SMOAK,   S                           3.3            14-MAY-05
                           MONAHAN, S                           16.6               30-OCT-04
                           LUBECKE, W                           36.4               25-JUN-05
                           TAYLOR, W                            45.9               25-DEC-04
                           CARNEY, M                           138.5               11-JUN-05
                               Total:                          244.8
                                                                             Attachment 4

                       AUDIT DATABASE INFORMATION SHEET


1. Project No.: A04SC042

2. Title of Audit: The Department of Energy's Annual Report to Congress on Management and
   Operating Contractor Employees in the Washington, DC Area

3. Report No./Date: OAS-L-05-07/June 10, 2005

4. Management Challenge Area: 010

5. Presidential Mgmt Initiative: PAl

6.   Secretary Priority/Initiative: N/A

7. Program Code: MA

8. Location/Sites: SEI

9. Finding Summary: N/A

10. Keywords:

        *   Facility contractor employees
        *   Management and Operating Contractor
